Petitioner’s Appendix A

United States of America
v.
Michael Angelo Williams
Decision of the United States
Court of Appeals for the Sixth Circuit
(unpublished)

Docket Number 20-5564
Issued April 23, 2021

NOT RECOMMENDED FOR PUBLICATION
File Name: 21a0220n.06
Case No. 20-5564
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED
UNITED STATES OF AMERICA,

)
)
)
)
)
)
)
)
)
)

Plaintiff-Appellee,
v.
MICHAEL ANGELO WILLIAMS,
Defendant-Appellant.

Apr 23, 2021
DEBORAH S. HUNT, Clerk
ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF
KENTUCKY

BEFORE: GUY, DONALD, and MURPHY, Circuit Judges.
BERNICE BOUIE DONALD, Circuit Judge. Michael Angelo Williams pleaded guilty
to a conspiracy charge and several drug-distribution charges. Months later, Williams twice moved
to withdraw his guilty plea as to the conspiracy charge, but the district court denied his withdrawal
requests. Following Williams’ failed attempts to proceed to trial after entering his plea, the district
court sentenced him to 150 months’ imprisonment. Williams now challenges the district court’s
denial of his motions to partially withdraw his guilty plea, as well as two aspects of his sentence.
For the reasons stated below, we AFFIRM the district court’s judgment.
I.
On August 8, 2019, Williams was charged in a five-count indictment with: conspiracy to
distribute and possess with intent to distribute 50 grams or more of methamphetamine, in violation
of 21 U.S.C. § 846 (Count 1); distributing 50 grams or more of a mixture or substance containing
methamphetamine, in violation of 21 U.S.C. § 841(a) (Count 2); and distributing 5 grams or more

Case No. 20-5564, United States v. Williams
of methamphetamine on three separate occasions, in violation of 21 U.S.C. § 841(a) (Counts 3, 4,
and 5). On October 9, 2019, Williams pleaded guilty to all five counts. After Williams’ initial
counsel withdrew from representing him, his new counsel filed a motion to withdraw Williams’
guilty plea as to Count 1 on February 18, 2020. In his motion, Williams argued that there was no
indicted co-defendant with whom he could have engaged in the conspiracy that he was charged
with committing. Williams explained that he reached this conclusion only after independently
researching potential defenses, and informed his second counsel of this possible defense
immediately upon making this discovery. The district court denied Williams’ motion, finding that
based on its evaluation of the relevant factors, Williams did not demonstrate that there was a fair
and just reason supporting the withdrawal of his plea pursuant to Fed. R. Crim. P. 11(d)(2)(B).
Undeterred by this ruling, Williams filed a second motion to withdraw his guilty plea to
Count 1 on May 7, 2020. In this motion, Williams contended that he did not knowingly and
voluntarily enter his guilty plea because there were allegedly discrepancies relative to Count 1 that
his original counsel should have explored. According to Williams, he entered his plea without the
benefit of reviewing all of the discovery in his case, which did not transpire until his second counsel
provided him with all documents tendered by the government. The district court was unconvinced
by Williams’ argument, and held that in addition to the fact that Williams could not adequately
describe any alleged “discrepancies” that should have been further examined by his initial counsel,
he again failed to meet his burden of proving that the withdrawal of his plea was for a fair and just
reason.
Subsequent to these denials, the case proceeded to the sentencing phase. During Williams’
sentencing hearing on May 13, 2020, the district court addressed the presentence report’s
recommendation that Williams’ Guidelines offense level should be increased by two points

-2-

Case No. 20-5564, United States v. Williams
because of his alleged firearm possession. FBI Task Force Officer, Mark Stidham, testified at the
hearing with regard to his role in the investigation that led to Williams’ arrest. Stidham testified
that a confidential informant notified him that when the informant purchased methamphetamine
from Williams on July 17, 2019 at Williams’ apartment, the informant observed a “black and silver
handgun” sitting on a table in the residence. Stidham also testified that while he was searching
Williams’ car on August 14, 2019—the car which Williams used to drive to and from participating
in several controlled drug buys—he recovered a loaded “black and silver handgun” underneath the
steering wheel in the vehicle. Finally, Stidham additionally testified that when he was executing
a search warrant on Williams’ apartment on August 13, 2019, he retrieved Winchester Smith &
Wesson .40 caliber bullets—the same type of bullets as those in the firearm found in Williams’
vehicle the next day.
The district court ruled that although there was a gap in time—between when the informant
saw the firearm in July 2019 and when Stidham located the firearm in Williams’ vehicle in August
2019—the evidence set forth indicated that Williams possessed a weapon during drug trafficking.
Consequently, the district court determined that the two-level enhancement was warranted.
Williams’ total offense level of 29, combined with his criminal history category of V, yielded an
advisory Guidelines range of 140 to 175 months’ imprisonment.
The district court then applied the 18 U.S.C. § 3553(a) factors before issuing Williams’
sentence. With respect to the nature and circumstances of the charged offenses, the district court
articulated that Williams’ crimes—dealing in actual methamphetamine on different occasions—
constituted serious offenses. Williams’ personal circumstances were also considered by the district
court, including the fact that Williams only had a tenth-grade education. The district court
additionally acknowledged that it considered the need to protect the public, stating that Williams

-3-

Case No. 20-5564, United States v. Williams
had twenty-two prior adult convictions—which included unlawful firearm possession
convictions—and had a history of recidivism. After evaluating the totality of the § 3553(a) factors,
the district court sentenced Williams to 150 months’ imprisonment for each of the counts, all of
which would run concurrently. The district court also mentioned that even if it was decided on
appeal that the two-level sentencing enhancement was applied erroneously, it would still impose
a 150-month sentence upon remand, as without the enhancement, Williams’ Guidelines range
would have been 120 to 150 months’ imprisonment. This timely appeal followed.
II.
A. Withdrawal of the Guilty Plea
Williams first argues that the district court erred by denying his motions to withdraw his
guilty plea as to Count 1. We review such claims for an abuse of discretion. United States v.
Giorgio, 802 F.3d 845, 848 (6th Cir. 2015). “Abuse of discretion results when the district court
relies on clearly erroneous findings of fact, improperly applies the law or uses an erroneous legal
standard.” United States v. Ellis, 470 F.3d 275, 280 (6th Cir. 2006).
A defendant may withdraw his plea if he “can show a fair and just reason for requesting
the withdrawal.” Fed. R. Crim. P. 11(d)(2)(B). As we have said previously, the purpose of this
rule is “to allow a hastily entered plea made with unsure heart and confused mind to be undone,
not to allow a defendant to make a tactical decision to enter a plea, wait several weeks, and then
obtain a withdrawal if he believes that he made a bad choice in pleading guilty.” United States v.
Alexander, 948 F.2d 1002, 1004 (6th Cir. 1991) (citation and internal quotation marks omitted).
If a plea has been entered knowingly and voluntarily, “the occasion for setting aside a guilty plea
should seldom arise.” Ellis, 470 F.3d at 280 (quotation omitted).

-4-

Case No. 20-5564, United States v. Williams
There are several factors that this Court considers in these instances, including:
(1) the amount of time that elapsed between the plea and the motion to withdraw it; (2) the
presence (or absence) of a valid reason for the failure to move for withdrawal earlier in the
proceedings; (3) whether the defendant has asserted or maintained his innocence; (4) the
circumstances underlying the entry of the guilty plea; (5) the defendant’s nature and
background; (6) the degree to which the defendant has had prior experience with the
criminal justice system; and (7) potential prejudice to the government if the motion to
withdraw is granted.
United States v. Bashara, 27 F.3d 1174, 1181 (6th Cir. 1994), superseded on other grounds by
statute as recognized in United States v. Caseslorente, 220 F.3d 727, 734 (6th Cir. 2000). This is
“a general, non-exclusive list” and no single factor is controlling. United States v. Bazzi, 94 F.3d
1025, 1027 (6th Cir. 1996). In the instant case, each of the factors weigh against Williams. We
analyze each factor in turn.
1. Length of Delay
Williams filed his first motion to withdraw over four months after he pleaded guilty. Our
Court has denied motions to withdraw guilty pleas where less time has elapsed between the guilty
plea and the motion to withdraw the plea. See, e.g., United States v. Catchings, 708 F.3d 710, 718
(6th Cir. 2013) (finding a delay of over two months favored the government); United States v.
Baez, 87 F.3d 805, 808 (6th Cir.1996) (finding a sixty-seven day delay favored the government);
United States v. Spencer, 836 F.2d 236, 239 (6th Cir. 1987) (finding a five-week delay favored the
government). This factor certainly weighs in favor of the government.
2. Reason for the Delay
Williams contends that the delay should be considered excusable because he did not realize
he had not reviewed all of the discovery until he had a meeting with his initial counsel on January

-5-

Case No. 20-5564, United States v. Williams
13, 2020.1 Even if the Court were to accept this contention as true, Williams does not explain why
that had an effect on his ability to file either of his motions to withdraw his plea sooner than he
did. Further, Williams fails to reveal what he learned through gaining access to all of the discovery
documents that led him to attempt to amend his guilty plea. Williams’ bare assertion does not
qualify as a valid reason for his 132-day filing delay, and this factor therefore favors the
government.
3. Assertion of Innocence
Williams claims that throughout his case, he has asserted his innocence by repeatedly
arguing that the government could not prove he engaged in a conspiracy since there were no other
individuals charged with conspiring with him. The Court is unpersuaded by Williams’ argument.
For one, during his rearraignment hearing on October 9, 2019, Williams openly admitted that he
conspired with at least one other person to distribute and possess with intent to distribute at least
50 grams of methamphetamine. Williams’ admission surely undermines his innocence claim. See
United States v. Martin, 668 F.3d 787, 796 (6th Cir. 2012) (“Statements of guilt under oath at a
plea hearing support the district judge’s decision not to permit withdrawal.”).

Moreover,

Williams’ contention that the government could not prove that he participated in the charged
conspiracy solely because the government did not name an indicted co-defendant with whom
Williams conspired is not an assertion of innocence—it is merely a flawed legal argument, see
United States v. Sachs, 801 F.2d 839, 845 (6th Cir. 1986). This factor weighs in favor of the
government.

1
Williams does not reassert on appeal that his motions to withdraw his plea were timely because it was only
after he pleaded guilty that he discovered a potential defense to the conspiracy charge. Accordingly, Williams has
abandoned that argument. United States v. Johnson, 440 F.3d 832, 845-46 (6th Cir. 2006); Fed. R. App. P.
28(a)(8)(A).

-6-

Case No. 20-5564, United States v. Williams
4. Circumstances Underlying the Guilty Plea
The district court thoroughly discussed Williams’ options during the rearraignment
hearing. The district court informed Williams of his right to proceed to trial and the consequences
of pleading guilty. Furthermore, the record demonstrates that Williams entered his plea knowingly
and voluntarily. Williams’ only contention to the contrary is that he entered his plea without the
benefit of receiving or understanding all of the discovery. As mentioned above, Williams does not
explain why he was inclined to alter his plea after acquiring additional evidence through discovery.
This factor weighs in favor of the government.
5. Williams’ Nature and Background
Williams argues that this factor weighs in his favor because he had a tenth-grade education,
never obtained his GED, and was labelled developmentally delayed in grade school. The district
court, however, found that “[h]is personal history and characteristics do not distinguish him from
most offenders charged with similar offenses[.]” We agree. Nothing in the record demonstrates
that Williams did not understand that he was entering a plea of guilt, and Williams responded
affirmatively when asked during his rearraignment hearing if he understood his charges and the
significance of pleading guilty. See Martin, 668 F.3d at 796–97 (holding that this factor weighed
against withdrawal where a defendant only had some high school education and comprehended
that he was pleading guilty to the charges he faced). This factor weighs in favor of the government.
6. Williams’ Prior Experience with the Criminal Justice System
At the time Williams pleaded guilty, he had twenty-two prior adult convictions, including
various felonies and misdemeanors. The record establishes that Williams was undoubtedly
familiar with entering guilty pleas. Moreover, we find that it is of no consequence that Williams
had not been previously charged specifically with violating 21 U.S.C. § 846 because he had a

-7-

Case No. 20-5564, United States v. Williams
significant amount of experience with the criminal justice system. This factor strongly weighs in
favor of the government.
7. Potential Prejudice to the Government if Either Motion to Withdraw is Granted
We have held that “the government is not required to establish prejudice that would result
from a plea withdrawal, unless and until the defendant advances and establishes a fair and just
reason for allowing the withdrawal[.]” Spencer, 836 F.2d at 240. Considering that six of the
factors weigh against Williams, he has not sufficiently proven that there is a fair and just reason to
allow him to withdraw his guilty plea. We therefore need not address this factor.
Accordingly, because none of the Bashara factors weigh in favor of allowing Williams to
withdraw his guilty plea, we hold that the district court did not abuse its discretion in denying
either of Williams’ motions to withdraw his plea.
B. Firearm Enhancement Under § 2D1.1(b)(1) of the Sentencing Guidelines
Williams next argues that the district court erred by applying a two-level dangerousweapon enhancement to his sentence under § 2D1.1(b)(1) of the Guidelines.

Specifically,

Williams claims that the record does not demonstrate that he actually or constructively possessed
a “firearm” as defined by the Guidelines, and if we find otherwise, alternatively, there was
insufficient evidence to prove that he used a weapon during the commission of his charged
offenses. See United States v. McCloud, 935 F.3d 527, 531 (6th Cir. 2019). In response, the
government contends that even if the district court erred in this regard, such an error would be
harmless.
We agree with the government, and find that even if the district court did erroneously apply
the dangerous-weapon enhancement, that error would have been harmless. Our Court has held
that any “[e]rrors that do not affect the ultimate Guidelines range or sentence imposed are harmless

-8-

Case No. 20-5564, United States v. Williams
and do not require resentencing.” United States v. Faulkner, 926 F.3d 266, 275 (6th Cir. 2019).
Here, when issuing Williams’ sentence, the district court emphasized that if our Court were to rule
that the imposition of the enhancement constituted error, it would nevertheless sentence Williams
to 150 months’ imprisonment.2 Thus, because any error by the district court would have had no
effect on Williams’ ultimate sentence, we need not determine whether the district court accurately
increased Williams’ offense level pursuant to § 2D1.1(b)(1). See United States v. Morrison, 852
F.3d 488, 491 (6th Cir. 2017) (“If the record shows that the district court would have imposed its
sentence regardless of the Guidelines range, then an error in calculating the Guidelines range is
harmless.”).
C. Substantive Reasonableness
Williams additionally claims that his sentence was substantively unreasonable. We review
whether a sentence was substantively reasonable under an abuse-of-discretion standard. Gall v.
United States, 552 U.S. 38, 51 (2007). Sentences within the Guidelines are presumed reasonable.
United States v. Vonner, 516 F.3d 382, 389 (6th Cir. 2008) (en banc). A sentence may be
substantively unreasonable if “the court placed too much weight on some of the § 3553(a) factors
and too little on others[.]” United States v. Rayyan, 885 F.3d 436, 442 (6th Cir. 2018).
Williams asserts that his sentence was substantively unreasonable because the district court
failed to adequately take his history and characteristics into consideration when sentencing him.
In particular, Williams argues that the district court should have given more weight to his difficult
childhood and lack of formal education. During Williams’ sentencing hearing, the district court
specifically stated that it evaluated Williams’ individual circumstances—including his challenging

2

The district court also clarified that in such scenario, a sentence at the high end of the 120-150 month
Guidelines range would be appropriate given Williams’ history of using and possessing handguns, substantial
recidivism, and history of violating the conditions of his release.

-9-

Case No. 20-5564, United States v. Williams
upbringing and limited education. Williams’ contention, therefore, is that the district court
improperly balanced the sentencing factors, which is a claim that is “beyond the scope of our
appellate review.” United States v. Ely, 468 F.3d 399, 404 (6th Cir. 2006); see also Gall, 552 U.S.
at 51 (“The fact that the appellate court might reasonably have concluded that a different sentence
was appropriate is insufficient to justify reversal of the district court.”).
Accordingly, Williams’ 150 month within-Guidelines sentence was substantively
reasonable.
III.
For the foregoing reasons, we AFFIRM the district court’s judgment.

- 10 -

Petitioner’s Appendix B

United States of America
v.
Michael Angelo Williams
Judgment of the United States
District Court for the Eastern District
of Kentucky, Northern Division
(unpublished)

Docket Number 2:19-CR-60-DLB-CJS
Filed May 13, 2020

Case: 2:19-cr-00060-DLB-CJS Doc #: 47 Filed: 05/13/20 Page: 1 of
7 - Page
165
Eastern
DistrictID#:
of Kentucky
AO 245B (Rev. 09/19)

FILED

Judgment in a Criminal Case
Sheet 1

MAY 13 2020
UNITED STATES DISTRICT COURT

· · Of Kentucky - North em Division
· at Covingta
Eastern D1stnct
)
)
)
)
)
)
)
)
)

UNITED STATES OF AMERICA

v.
Michael Angelo Williams
AKA Black

AT COVINGTON
ROBERT R. CARR
K U.S. DISTRICT COURT

JUDGMENT IN A CRIMINAL CASE
Case Number:

2: 19-CR-60-DLB-CJS

USM Number:

22744-032

Stefanie Lynn Durstock
Defendant's Attorney

THE DEFENDANT:
IZI pleaded guilty to count(s)
□

-1-5~[DE#3]
-~~------------------------------

pleaded nolo contendere to count(s)
which was accepted by the court.

0 was found guilty on count(s)
after a plea of not guilty.
The defendant is adjudicated guilty of these offenses:
Title & Section
21:846
21 :841(a)(l)
21:84l(a)(l)
21:841(a)(l)
21:84l(a)(l)

Nature of Offense
Conspiracy to Distribute Controlled Substance Including 50 Gr. Or More Of
Methamphetamine
Distribution of a Controlled Substance - Methamphetamine
Distribution of a Controlled Substance - Methamphetamine
Distribution of a Controlled Substance - Methamphetamine
Distribution of a Controlled Substance - Methamphetamine

The defendant is sentenced as provided in pages 2 through
the Sentencing Reform Act of 1984.
□

Offense Ended
August 8, 2019

Count

March 11 , 2019
March 26, 2019
April 17, 2019
May 6, 2019

2
3
4
5

1

__
7 __ of this judgment. The sentence is imposed pursuant to

The defendant has been found not guilty on count( s)

□ Count(s)

--------------

□

is

O

are dismissed on the motion of the United States.

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name, residence,
or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay restitution,
the defendant must notify the court and United States attorney of material changes in economic circumstances.

Ma 13, 2020

Honorable David L. Bunning, U.S. District Judge
Name and Title of Judge

May 13, 2020
Date

Case: 2:19-cr-00060-DLB-CJS Doc #: 47 Filed: 05/13/20 Page: 2 of 7 - Page ID#: 166
AO 245B (Rev. 09/19)

Judgment in a Criminal Case
Sheet 2 - Imprisonment
Judgment -

DEFENDANT:
CASE NUMBER:

2 _ of
Page _ _

7

Michael Angelo Williams AKA Black
2: 19-CR-60-DLB-CJS

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a total term of:

ONE HUNDRED FIFTY (150) MONTHS on Counts 1-5, to run concurrent
for a total of ONE HUNDRED FIFTY (150 MONTHS)
~

The court makes the following recommendations to the Bureau of Prisons:
It is recommended that you participate in a program working toward the completion of a GED.
It is recommended to the Bureau of Prisons that the defendant participate in the 500-Hour RDAP Program or in a substance
abuse program for which he qualifies.
It is recommended to the Bureau of Prisons that the defendant participate in a job skills and/or vocational training program.
It is recommended to the Bureau of Prisons that the defendant be designated to FCI Ashland.

~

The defendant is remanded to the custody of the United States Marshal.

D

The defendant shall surrender to the United States Marshal for this district:

D

at

D

as notified by the United States Marshal.

D

D a.m.

D p.m.

on

The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:

D

before 2 p.m. on

D

as notified by the United States Marshal.

D

as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on
at

-------------- ,

to
with a certified copy of this judgment.

UNITED ST ATES MARSHAL

By---------------------DEPUTY UNITED ST ATES MARSHAL

Case: 2:19-cr-00060-DLB-CJS Doc #: 47 Filed: 05/13/20 Page: 3 of 7 - Page ID#: 167
AO 245B (Rev. 09/19)

Judgment in a Criminal Case
Sheet 3 - Supervised Release
Judgment-Page --'3'--_ of

DEFENDANT:
CASE NUMBER:

7

Michael Angelo Williams AKA Black
2: l 9-CR-60-DLB-CJS

SUPERVISED RELEASE
Upon release from imprisonment, you will be on supervised release for a term of:

FIVE (5) YEARS on Counts 1-5, to run concurrent,
for a total of FIVE (5) YEARS

MANDATORY CONDITIONS
1.
2.
3.

4.
5.
6.

7.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use ofa controlled substance. You must submit to one drug test within 15 days ofrelease from
imprisonment and at least two periodic drug tests thereafter, as determined by the court.
D The above drug testing condition is suspended, based on the court's determination that you
pose a low risk of future substance abuse. (Check, if applicable.)
□ You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence of
restitution. (Check, if applicable.)
~ You must cooperate in the collection of DNA as directed by the probation officer. (Check, if applicable.)
D You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et seq.) as
directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in the location where you
reside, work, are a student, or were convicted of a qualifying offense. (Check, if applicable.)
D You must participate in an approved program for domestic violence. (Check, if applicable.)

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the attached
page.

Case: 2:19-cr-00060-DLB-CJS Doc #: 47 Filed: 05/13/20 Page: 4 of 7 - Page ID#: 168
AO 245B (Rev. 09/19)

Judgment in a Criminal Case
Sheet 3A - Supervised Release
Judgment-Page _ _
4 _ _ of

DEFENDANT:
CASE NUMBER:

7

Michael Angelo Williams AKA Black
2: 19-CR-60-DLB-CJS

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are imposed
because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed by probation
officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1.
2.
3.
4.
5.

6.
7.

8.
9.
10.
11.
12.
13.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from the
court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer to
take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. Ifnotifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of becoming
aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that was
designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant without
first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview ofProbation and Supervised
Release Conditions, available at: www.uscourts.gov.
Defendant's Signature

Date _ _ _ _ _ _ _ _ _ _ _ _ __

Case: 2:19-cr-00060-DLB-CJS Doc #: 47 Filed: 05/13/20 Page: 5 of 7 - Page ID#: 169
AO 245B (Rev. 09/19)

Judgment in a Criminal Case
Sheet 3E - Supervised Release
Judgment-Page _ _
s_

DEFENDANT:
CASE NUMBER:

of

7

Michael Angelo Williams AKA Black
2: 19-CR-60-DLB-CJS

SPECIAL CONDITIONS OF SUPERVISION
1. You must participate in a substance abuse treatment program and must submit to periodic drug and alcohol testing
at the direction and discretion of the probation officer during the term of supervision. You must pay for the cost
of treatment services to the extent you are able as determined by the probation officer.
2. You must refrain from obstructing or attempting to obstruct or tamper, in any fashion, with the efficiency and
accuracy of any prohibited substance testing which is required as a condition of release.
3. You must not purchase, possess, use, distribute or administer any controlled substance or paraphernalia related to
controlled substances, except as prescribed by a physician, and must not frequent places where controlled
substances are illegally sold, used, distributed or administered. Further, you may not use or consume marijuana
even if such controlled substance were to be prescribed to you by a physician, licensed professional or other
person.
4. You must submit your person, property, house, residence, vehicle, papers, computers (as defined in 18 U.S.C. §
1030(e)( 1), but including other devices excluded from this definition), other electronic communications or data
storage devices or media, or office, to a search conducted by a United States probation officer. Failure to submit
to a search will be grounds for revocation of release. You must warn any other occupants that the premises may
be subject to searches pursuant to this condition.
5. Should you not complete a GED while in the custody of the Bureau of Prisons, you are to continue in such a
program, as directed by the probation office, as a condition of supervision

Case: 2:19-cr-00060-DLB-CJS Doc #: 47 Filed: 05/13/20 Page: 6 of 7 - Page ID#: 170
AO 245B (Rev. 09/19)

Judgment in a Criminal Case
Sheet 5 - Criminal Monetary Penalties
Judgment -

DEFENDANT:
CASE NUMBER:

Page _ _6_ _

of

7

Michael Angelo Williams AKA Black
2: 19-CR-60-DLB-CJS

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
Assessment
TOTALS

Fine

Restitution

$ 500.00 ($ lO0lct)

$ Waived

$ Community Waived

- - - -.

AVAA Assessment*
$ NIA

JVT A Assessment**
$ NIA

An Amended Judgment in a Criminal Case (AO 245C) will be entered

D

The determination of restitution is deferred until
after such determination.

D

The defendant must make restitution (including community restitution) to the following payees in the amount listed below.

If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified otherwise in
the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must be paid
before the United States is paid.
Name of Payee

TOTALS

Restitution Ordered

Total Loss***

$

Priority or Percentage

$ _ _ _ _ _ _ _ _ __

----------

D

Restitution amount ordered pursuant to plea agreement $

D

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

D

The court determined that the defendant does not have the ability to pay interest and it is ordered that:
D

the interest requirement is waived for the

D

the interest requirement for the

D

D
fine

fine

D

D

restitution.

restitution is modified as follows:

* Amy, Vicky, and Andy Child Pornography Victim Assistance Act of 2018, Pub. L. No. 115-299.
** Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22.
*** Findings for the total amount oflosses are required under Chapters 109A, 110, l lOA, and 113A of Title 18 for offenses committed on or
after September 13 , 1994, but before April 23, 1996.

Case: 2:19-cr-00060-DLB-CJS Doc #: 47 Filed: 05/13/20 Page: 7 of 7 - Page ID#: 171
AO 245B (Rev. 09/19) Judgment in a Criminal Case
Sheet 6 - Schedule of Payments
Judgment - Page

DEFENDANT:
CASE NUMBER:

7

of

7

Michael Angelo Williams AKA Black
2: l 9-CR-60-DLB-CJS

SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay, payment of the total criminal monetary penalties is due as follows:
A

~

Lump sum payment of$ _50_0_.0_0_ _ __

D
~

not later than
in accordance with

D

C,

D

D,

due immediately, balance due
, or
D E, or

~

□

F below; or
□

B

D

Payment to begin immediately (may be combined with

C

D

Payment in equal _ _ _ _ _ _ (e.g., weekly, monthly, quarterly) installments of $ _ _ _ _ _ _ over a period of
(e.g., months or years) , to commence _ _ _ _ _ (e. g., 30 or 60 days) after the date of this judgment; or

D

D

Payment in equal _ _ _ _ _ _ (e.g., weekly, monthly, quarterly) installments of $ _ _ _ _ _ _ over a period of
(e.g., months or years), to commence _ _ _ _ _ (e.g., 30 or 60 days) after release from imprisonment to a
term of supervision; or

E

D

Payment during the term of supervised release will commence within
_ _ _ _ _ (e.g., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant' s ability to pay at that time; or

F

~

Special instructions regarding the payment of criminal monetary penalties:

C,

D,or

D

F below); or

Criminal monetary penalties are payable to:
Clerk, U. S. District Court, Eastern District of Kentucky
35 West 5th Street, Room 289, Covington, KY 41011-1401
INCLUDE CASE NUMBER WITH ALL CORRESPONDENCE
Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due during the
period of imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons' Inmate Financial
Responsibility Program, are made to the clerk of the court.

The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.
□

Joint and Several
Case Number
Defendant and Co-Defendant Names
{including defendant number)

Total Amount

Joint and Several Amount

Corresponding Payee, if appropriate

D

The defendant shall pay the cost of prosecution.

D

The defendant shall pay the following court cost(s):

D

The defendant shall forfeit the defendant' s interest in the following property to the United States:

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) AVAA assessment,
(5) fine principal, (6) fine interest, (7) community restitution, (8) NTA assessment, (9) penalties, and (10) costs, including cost of
prosecution and court costs.

Petitioner’s Appendix C
Text of
Federal Rule of Criminal Procedure 11(d)

Fed. R. Crim. P. 11(d) – Withdrawing a Guilty or Nolo
Contendere Plea.
A defendant may withdraw a plea of guilty or nolo contendere:
(1) before the court accepts the plea, for any reason or no
reason; or
(2) after the court accepts the plea, but before it imposes
sentence if:
(A) the court rejects a plea agreement under Rule
11(c)(5);
or
(B) the defendant can show a fair and just reason for
requesting the withdrawal.

Petitioner’s Appendix D
Text of
U.S.S.G. §2D1.1(b)(1)

U.S.S.G. §2D1.1(b)(1)
(b) Specific Offense Characteristics
(1) If a dangerous weapon (including a firearm) was possessed,
increase by 2 levels.

Petitioner’s Appendix E
Text of
18 U.S.C. §3553(a)

18 U.S.C. § 3553 -- Imposition of a sentence
(a) Factors to be considered in imposing a sentence.-The court shall impose a sentence sufficient, but not greater
than necessary, to comply with the purposes set forth in
paragraph (2) of this subsection. The court, in determining the
particular sentence to be imposed, shall consider-(1) the nature and circumstances of the offense and the
history and characteristics of the defendant;
(2) the need for the sentence imposed—
(A) to reflect the seriousness of the offense, to promote
respect for the law, and to provide just
punishment for the offense;
(B) to afford adequate deterrence to criminal conduct;
(C) to protect the public from further crimes of the
defendant; and
(D) to provide the defendant with needed educational
or vocational training, medical care, or other
correctional treatment in the most effective
manner;
(3) the kinds of sentences available;
(4) the kinds of sentence and the sentencing range
established for—
(A) the applicable category of offense committed by the
applicable category of defendant as set forth in the
guidelines—

(i)

issued by the Sentencing Commission
pursuant to section 994(a)(1) of title 28,
United States Code, subject to any
amendments made to such guidelines by act
of Congress (regardless of whether such
amendments have yet to be incorporated by
the Sentencing Commission into amendments
issued under section 994(p) of title 28); and
(ii) that, except as provided in section 3742(g),
are in effect on the date the defendant is
sentenced; or
(B) in the case of a violation of probation or supervised
release, the applicable guidelines or policy
statements issued by the Sentencing Commission
pursuant to section 994(a)(3) of title 28, United
States Code, taking into account any amendments
made to such guidelines or policy statements by
act of Congress (regardless of whether such
amendments have yet to be incorporated by the
Sentencing Commission into amendments issued
under section 994(p) of title 28);
(5) any pertinent policy statement—
(A) issued by the Sentencing Commission pursuant to
section 994(a)(2) of title 28, United States Code,
subject to any amendments made to such policy
statement by act of Congress (regardless of
whether such amendments have yet to be
incorporated by the Sentencing Commission into
amendments issued under section 994(p) of title
28); and

(B) that, except as provided in section 3742(g), is in
effect on the date the defendant is sentenced.
(6) the need to avoid unwarranted sentence disparities
among defendants with similar records who have been
found guilty of similar conduct; and
(7) the need to provide restitution to any victims of the
offense.

